<html>
<title> - THE RAPID ACT; THE SUNSHINE FOR REGULATORY DECREES AND SETTLEMENTS ACT OF 2015; AND THE SCRUB ACT OF 2015</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




                   THE RAPID ACT; THE SUNSHINE FOR
                 REGULATORY DECREES AND SETTLEMENTS ACT
                   OF 2015; AND THE SCRUB ACT OF 2015

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            
                           REGULATORY REFORM,
                           
                      COMMERCIAL AND ANTITRUST LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                       
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                                   ON

                   H.R. 348, H.R. 712, and H.R. 1155

                               __________

                             MARCH 2, 2015

                               __________

                           Serial No. 114-14

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
      
      
                                 _______
                                  
                     U.S. GOVERNMENT PUBLISHING OFFICE 

93-599 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001 
                          
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
                                 ------                                

    Subcommittee on Regulatory Reform, Commercial and Antitrust Law

                   TOM MARINO, Pennsylvania, Chairman

                 BLAKE FARENTHOLD, Texas, Vice-Chairman

DARRELL E. ISSA, California          HENRY C. ``HANK'' JOHNSON, Jr.,
DOUG COLLINS, Georgia                  Georgia
MIMI WALTERS, California             SUZAN DelBENE, Washington
JOHN RATCLIFFE, Texas                HAKEEM JEFFRIES, New York
DAVE TROTT, Michigan                 DAVID N. CICILLINE, Rhode Island
MIKE BISHOP, Michigan                SCOTT PETERS, California

                      Daniel Flores, Chief Counsel
                      
                            C O N T E N T S

                              ----------                              

                             MARCH 2, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Tom Marino, a Representative in Congress from the 
  State of Pennsylvania, and Chairman, Subcommittee on Regulatory 
  Reform, Commercial and Antitrust Law...........................     1
The Honorable Henry C. ``Hank'' Johnson, Jr., a Representative in 
  Congress from the State of Georgia, and Ranking Member, 
  Subcommittee on Regulatory Reform, Commercial and Antitrust Law     3
The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     5

                               WITNESSES

William L. Kovacs, Senior Vice President, Environment, Technology 
  & Regulatory Affairs, U.S. Chamber of Commerce
  Oral Testimony.................................................     9
  Prepared Statement.............................................    11
Sam Batkins, Director of Regulatory Policy, American Action Forum
  Oral Testimony.................................................    35
  Prepared Statement.............................................    37
Patrick A. McLaughlin, Ph.D., Senior Research Fellow, Mercatus 
  Center at George Mason University
  Oral Testimony.................................................    47
  Prepared Statement.............................................    49
Amit Narang, Regulatory Policy Advocate, Public Citizen
  Oral Testimony.................................................    56
  Prepared Statement.............................................    59

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable Doug Collins, a 
  Representative in Congress from the State of Georgia, and 
  Member, Subcommittee on Regulatory Reform, Commercial and 
  Antitrust Law..................................................    73
Material submitted by the Honorable Henry C. ``Hank'' Johnson, 
  Jr., a Representative in Congress from the State of Georgia, 
  and Ranking Member, Subcommittee on Regulatory Reform, 
  Commercial and Antitrust Law...................................    81
Material submitted by the Honorable Tom Marino, a Representative 
  in Congress from the State of Pennsylvania, and Chairman, 
  Subcommittee on Regulatory Reform, Commercial and Antitrust Law   137

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from Blake Hurst, President, Missouri Farm Bureau 
  Federation.....................................................   144
Response to Questions for the Record from William L. Kovacs, 
  Senior Vice President, Environment, Technology & Regulatory 
  Affairs, U.S. Chamber of Commerce..............................   145
Questions for the Record submitted to and Response from Amit 
  Narang, Regulatory Policy Advocate, Public Citizen.............   154
H.R. 348, the ``Responsibly And Professionally Invigorating 
  Development (RAPID) Act of 2015''..............................   162
H.R. 712, the ``Sunshine for Regulatory Decrees and Settlements 
  Act of 2015''..................................................   195
Text of H.R. __, the ``Searching for and Cutting Regulations that 
  are Unnecessarily Burdensome (SCRUB) Act of 2015''.............   210
Introduced Version of H.R. 1155, the ``Searching for and Cutting 
  Regulations that are Unnecessarily Burdensome (SCRUB) Act of 
  2015''.........................................................   239

 
THE RAPID ACT; THE SUNSHINE FOR REGULATORY DECREES AND SETTLEMENTS ACT 
                   OF 2015; AND THE SCRUB ACT OF 2015

                              ----------                              


                         MONDAY, MARCH 2, 2015

                       House of Representatives,

                  Subcommittee on Regulatory Reform, 
                      Commercial and Antitrust Law

                      Committee on the Judiciary,

                            Washington, DC.

    The Subcommittee met, pursuant to call, at 4:01 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Tom 
Marino (Chairman of the Subcommittee) presiding.
    Present: Representatives Marino, Goodlatte, Issa, Collins, 
Ratcliffe, Trott, Bishop, Johnson, Conyers and Peters.
    Staff Present: (Majority) Daniel Flores, Subcommittee Chief 
Counsel; Andrea Lindsey, Clerk; and (Minority) Slade Bond, 
Counsel.
    Mr. Marino. Good afternoon. I want to thank you for being 
here, and the Subcommittee on Regulatory Reform, Commercial and 
Antitrust Law will come to order.
    Without objection, the Chair's authorized to declare 
recesses of the Committee at any time.
    We welcome everyone to today's hearing on H.R. 348, the 
``Responsibly And Professionally Invigorating Development Act 
of 2015,'' also known as the ``RAPID Act,'' H.R. 712, the 
``Sunshine for Regulatory Decrees and Settlements Act of 
2015,'' and H.R. 1155, the ``Searching for and Cutting 
Regulations that are Unnecessarily Burdensome (SCRUB) Act of 
2015.''
    I will recognize myself for my opening statement. The 
American historical record has always been, ``the worse the 
recession, the stronger the recovery.'' Regrettably for many 
Americans I think we can all agree the recovery from the 
recession has been anything but strong. According to the 
Federal Reserve Bank of Minneapolis in the 10 previous 
recessions since the depression, the economy recovered all jobs 
lost during the recession after an average of 25 months from 
the prior jobs peek.
    Under the current Administration however, it took until 
June 2014, 78 months after the prior jobs peek or 6 and a half 
years later for even The New York Times to claim we had 
recovered all of the recession's job losses. Besides losing 
paychecks, many of Americans have lost the dignity and 
satisfaction that comes from earning a living and supporting a 
family with a full time job. No government benefit can 
compensate a person for that.
    Americans are ready to work. Employers are eager to create 
jobs, if only the government could just get out of the way. As 
we will hear from the witnesses today the job opportunities are 
here on U.S. soil. A study of proposed projects in just one 
sector of the economy, the energy sector found that if a modest 
number of these projects were allowed to go forward and break 
ground and the direct and indirect economic benefits would be 
tremendous. It identified 351 projects if approved to generate 
$1.1 trillion and create 1.9 million jobs annually.
    The U.S. Chamber of Commerce's study, Project No Project, 
looked at the potential economic impact of permitting 
challenges faced by U.S. companies attempting to propose new 
energy projects. For example, Penn-Mar Ethanol attempted to 
construct an ethanol reducing plant in Conoy Township 
Pennsylvania, but neighboring Hellam Township sent a letter 
to--excuse me, Conoy Township's board of supervisors objecting 
to the ethanol plan. Hellam Townships objections included 
environmental risks to the surrounding area and a risk of 
causing the beautiful area surrounding the Susquehanna River to 
become an undesirable site. Is that when we mean when we talk 
about negative environmental impact and obstructed scenic view? 
Certainly job creators can't be effective in creating jobs 
until such an over expansive extreme regime.
    After hearing about the numerous projects currently 
awaiting approval, many of us might be asking ourselves if the 
workers are here, and the jobs are here, then what's keeping 
workers idle? Well, I will tell you, it is our outdated, 
burdensome, convoluted, Federal permitting process that has 
become a hotbed for the environmental extremists looking to 
hold up infrastructure of building and growth that our country 
so desperately needs.
    Today there is no limit to the objections various agencies 
can raise. Environmental reviews not uncommonly take up to a 
decade or more holding jobs hostage in the process. Antigrowth, 
antipermitting advocates meanwhile can lie in the weeds for 
another 6 years once a permit is finally granted, before 
ambushing good faith project developers with dilatory job and 
project killing litigation.
    Instead of empowering businesses to be the engine of our 
economy, we instead tie them up with thousands of pages of 
decisions in interminable administrative and litigation delays. 
This is incomprehensible to anyone but a specialist, a costly 
legal team or a so-called advocacy group that seeks to kill 
economic activity and the jobs in growth for hardworking 
Americans that come with it.
    I introduced the RAPID Act to right the ship, restore 
balance and impose sanity on our Federal permitting system. My 
esteemed colleague Mr. Collins from Georgia and Mr. Smith from 
Missouri similarly introduced the Sunshine for Regulatory 
Decrees and Settlements Act and the SCRUB Act to achieve the 
same thing in litigation that seeks to force new regulations in 
an effort to clear from the code of Federal regulations 
overburdensome regulations we no longer need.
    The key to these reforms is balance, and each of these 
reforms has that. My RAPID Act strikes the right balance 
between conservation, and deployment, and development.
    The Sunshine for Regulatory Decrees and Settlement Act 
strikes the right balance between respect for plaintiffs and 
defendant's right and regulatory litigation in fairness to 
regulate entities in State coregulators that must bear the 
burden of living under and implementing new regulations.
    And the SCRUB Act strikes the right balance between keeping 
regulations we still need in scrubbing from the books 
regulations that are unnecessary obstacles to jobs and growth. 
I thank our witnesses for attending and sharing their valuable 
expertise with us and look forward to their testimony.
    It is my pleasure now to recognize the gentleman from 
Georgia, the Ranking Member of the Subcommittee on Regulatory 
Reform, Commercial and Antitrust Law, Congressman Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    In 1981 a professor of law at the University of Chicago 
described the difference between the parties as quite simple, 
while cautioning Republicans against the fervent pursuit of 
regulatory reform stating, Democrats want to run the country 
and Republicans don't want them to. Republicans seem delighted 
in the prospect of legislation that will make change more 
difficult. Where government action is needed by the private 
sector as it is for the licensing of new nuclear plants, the 
procedural safeguards and judicial review protections so 
carefully nurtured in other contexts by the corporate bar have 
proven to be a Frankenstein, affording licensing opponents, 
unlimited opportunities to impose costly delays.
    The professor concluded that regulatory reform measures do 
not deter regulation, they deter change no matter the cost of 
inaction. That professor would go on to become an Associate 
Justice of the United States Supreme Court and his name, none 
other than Antonin Scalia. It is indeed rare for me to quote 
Justice Scalia in any context, let alone with approval, but I'm 
struck by the prescience of the Justice over 3 decades ago in 
describing the short-sighted nature of proponents of regulatory 
reform.
    During today's hearing this Subcommittee will consider 
three pieces of legislation that do absolutely nothing to 
protect the public interest, grow the economy or create jobs. 
The only connection between these bills is their bold 
corporatism. H.R. 348, the so-called Responsibly and 
Professionally Invigorating Development Act of 2015 will result 
in widespread confusion and delay in the review and permitting 
process under the National Environmental Policy Act by carving 
out a separate environmental review process for construction 
projects, which the bill doesn't even define. And if an agency 
fails to meet the unrealistic deadlines mandated by H.R. 348, 
the bill would automatically green light a project regardless 
of whether the agency has thoroughly reviewed the project's 
risks.
    This legislation is a solution feverishly in search of a 
problem. The nonpartisan Congressional Research Service 
reported in 2012 that project approval delays based on 
environmental requirements are not caused by NEPA, but are more 
often tied to local, State and project specific factors, 
primarily local state agency priorities, project funding 
levels, local opposition to a project, project complexity or 
late changes in project scope.
    I also have serious concerns with H.R. 712, the ``Sunshine 
for Regulatory Decrees and Settlements Act of 2015.'' Consent 
decrees and settlement agreements help ensure that agencies 
take necessary action by a certain date. The Government 
Accountability Office also reported in December of 2014 that 
there is zero evidence indicating that agencies collude with 
public interest groups in bringing these consent decrees that 
the Chamber has often claimed.
    H.R. 712 would allow for nearly any private party to 
intervene in a consent decree revealing the legislation's true 
purpose of stacking the deck in industry's favor to avoid the 
enforcement of the law.
    Lastly, H.R. 1155, the ``SCRUB Act'' is a one-way ratchet 
with the sole aim of prioritizing cost over benefits through 
the reckless elimination of rules without consideration of 
their benefits. This legislation would shift the cost of rules 
from corporations to consumers while posing substantial burdens 
and delays to agencies undermining public health and safety. It 
is indeed an act that should be scrubbed.
    In closing, I strongly oppose each of these deregulatory 
train wrecks that comprise the subject of today's hearing.
    And I yield back.
    Mr. Marino. Thank you, Mr. Johnson.
    It is now my pleasure to recognize the Chairman of the full 
Judiciary Committee, the gentleman from Virginia, Chairman Bob 
Goodlatte.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    America's voters sent the 114th Congress to Washington to 
do one thing above all other others, help turn around this 
Nation's struggling economy. From the outset of the term, the 
Judiciary Committee has responded to that mandate with urgently 
needed reforms of Washington's regulatory system. A system that 
virtually every day places new obstacles in the path of 
American jobs and economic growth.
    Already the House has passed two critical Judiciary 
Committee regulatory reform bills. The Regulatory 
Accountability Act to force regulators to account for and 
control far better the excessive cost of new regulations and 
the Small Business Regulatory Flexibility Improvements Act to 
force regulators finally to accommodate better the needs of 
small businesses when they issue new regulations.
    Today's hearing considers three more integral parts of the 
Judiciary Committee's regulatory reform package, the RAPID Act, 
the Sunshine for Regulatory Decrees and Settlements Act and the 
Searching for and Cutting Regulations That Are Unnecessarily 
Burdensome or SCRUB Act.
    The RAPID Act contains common sense reform to streamline 
permitting for Federally funded and Federally permitted 
construction projects. It gives lead agencies more power to 
conduct and conclude efficient interagency reviews of permit 
requests and requires lawsuits that challenge permitting 
decisions to be filed within 6 months of the decisions. These 
are simple but powerful reforms that will allow good projects 
to move forward more quickly delivering high quality jobs and 
improvements to American daily lives.
    The Sunshine for Regulatory Decrees and Settlements Act 
curbs the abuse of sue and settle consent decrees and 
settlement agreements to force through new regulations under 
judicial authority without adequate consideration of the views 
of those who are regulated and of the States who so often must 
shoulder the hard work of implementing Federal regulatory 
decisions.
    Finally, the SCRUB Act institutes a blue ribbon commission 
to help identify and eliminate costly regulations that can 
safely be removed from the code of regulations. These include, 
for example, regulations that have achieved their purpose and 
are no longer truly needed, imposed paperwork burdens that can 
be reduced substantially without significantly undercutting 
regulatory effectiveness or impede the new introduction of new, 
safer and more efficient technologies.
    Opponents of these bills contend that there are no problems 
with regulations or that these bills overreact to the problems 
and would bring needed regulatory actions to a halt. The 
American people know better. In the middle of it this winter's 
historic cold, ask any worker displaced by a new ideologically 
driven power plant regulation how warm they are as they 
continue in vain to look for a new job.
    Ask any farmer who fears that the Environmental Protection 
Agency's new Waters of the United States rule will place 
Federal permitting shackles on the use of their property 
because once in a while there is a puddle in a middle of field.
    Ask municipality and manufacturers across the country that 
will not be able to grow because of the EPA's new ozone rule, 
the most costly single regulation ever issued. Like each bill 
in the Judiciary Committee's regulatory reform package, each of 
these bills contains well thought out balanced reforms. They 
allow needed regulatory actions to take place but provide for 
more transparency, more public input and more accountability in 
the regulatory process. They also provide for more efficient 
decisionmaking and more effective tools to prevent or remove 
from the books regulatory actions that are not needed, are ill-
considered or are the overreaching fruits of back door 
sweetheart negotiations between regulators and pro regulatory 
advocates.
    I urge my colleagues to consider well and support these 
important pieces of legislation. I look forward to the 
testimony of our witnesses.
    And I yield back, thank you, Mr. Chairman.
    Mr. Marino. Thank you, Chairman.
    It is new my pleasure to recognize the Judiciary Committee 
Ranking Member, Mr. Conyers of Michigan for his opening 
statement.
    Mr. Conyers. Thank you.
    We seem to have on the Committee very differing views of 
what we're going to be talking about today, I suppose the 
witnesses have picked up on that already.
    I'd like to describe what I think are three thoroughly 
flawed bills, and I begin with H.R. 348 the misleadingly titled 
``Responsibly And Professionally Invigorating Development Act 
of 2015.'' Rather than making real reforms to the process which 
Federal agencies undertake environmental impact reviews as 
required by the National Environmental Policy Act, this 
legislation will make this process less responsible, less 
professional and less accountable.
    I think that will come out during the course of our 
discussion between us today. But worse yet this measure could 
jeopardize public health and safety by prioritizing speed over 
meaningful analysis. Under the guise of streamlining the 
approval process, the bill forecloses potentially critical 
input from various stakeholders, including Federal, State and 
local agencies for construction projects that are Federally 
funded or that require Federal approval.
    Disturbingly, this measure could even allow such projects 
to be approved before the required review is completed. As a 
result, H.R. 348 could allow projects to proceed that put 
public health and safety at risk. These failings along with 
many others explain why the Administration and the President's 
Council on Environmental Quality, along with 25 respected 
environmental groups, including the Audubon Society, the League 
of Conservation Voters, Natural Resources Defense Council and 
the Sierra Club strenuously oppose similar legislation 
considered in the last Congress.
    The next bill, H.R. 712, the ``Sunshine for Regulatory 
Decrees and Settlements Act of 2015,'' has a simple goal, to 
greatly discourage the use of settlement agreements and consent 
decrees by Federal agencies when they fail to meet their 
regulatory obligations as mandated by Congress.
    Why is this bill problematic? Well, here are a few reasons, 
as with the prior bill, H.R. 712 would effectively delay the 
implementation of regulatory protections, thereby jeopardizing 
public health and safety. For example, the bill gives opponents 
of regulation multiple opportunities to stifle rulemaking by 
allowing essentially any third party who is affected by the 
regulatory action at issue in a covered civil action to 
intervene in that civil action subject to rebuttal, to 
participate in settlement negotiations, and to submit public 
comments about a proposed consent decree or settlement 
agreement that agencies would be required to respond to before 
such decree or agreement can be entered in court.
    Remember, Federal agencies are often sued for their failure 
to meet their statutory obligations, including missing 
rulemaking deadlines. Consent decrees and settlement agreements 
help to enforce the statutory mandates and assure that these 
agencies meet their obligations by a date certain. But, H.R. 
712 would needlessly impede this enforcement process by 
imposing an extensive series of burdensome requirements on 
agencies seeking to enter into consent decrees or settlement 
agreements.
    A broad coalition of civil rights, environmental consumer 
protection, and other public interest groups opposed a 
substantially similar bill considered in the 112th and the 
113th Congresses. These organizations include the Alliance for 
Justice, the American Association for Justice, the Center for 
Food Safety, the Defenders of Wildlife, Earth Justice, the 
Natural Resources Defense Council and the Center for Effective 
Government and Public Citizen. Additionally, the Administration 
threatened to veto H.R. 712's predecessor from the 112th 
Congress, stating that it would spawn excessive regulatory 
litigation and introduce redundant processes for litigation 
settlements.
    And finally, we have H.R. 1155, the ``Searching for and 
Cutting Regulations that are Unnecessarily Burdensome Act of 
2015'' or for short the ``SCRUB Act.'' Most observers would 
agree in principle that retrospective review of existing 
regulations is a good idea. Agencies should periodically assess 
whether the rules they have promulgated are as effective as 
they can be or whether they are even necessary in light of 
changed circumstances. Unfortunately, the SCRUB Act would not 
simply require retrospective review, instead it is yet another 
attempt to hobble the ability of agencies to regulate and 
thereby prevent them from protecting public health and safety 
based on unsubstantiated rhetoric that regulations inhibit 
economic growth.
    As a threshold matter, the central feature of the bill is 
the establishment of a commission to identify rules that should 
be eliminated. The commission would effectively be able to 
second guess the judgments of Congress and the agencies with 
respect to the need for certain rules and the science and 
analysis warranting such rule.
    The bill reflects a blatantly one sized, unbalanced 
approach to retrospective review. For example, virtually all of 
the bills objectives and mechanisms are one-way ratchet. The 
measure is designed to result in the repeal or amendment of a 
rule only to eliminate or reduce costs regardless of the rules 
benefits. Tellingly, H.R. 1155 does absolutely nothing to 
promote actions that would enhance the benefits of rules.
    In closing these measures threaten critical public health 
and safety protections. It's a shame that the majority has 
chosen to largely ignore the concerns of my colleagues and I 
have previously identified with these bills.
    I thank the witnesses for appearing today and look forward 
to their testimony.
    Mr. Marino. Thank you, Mr. Conyers.
    Without objection, other Members opening statements will be 
made part of the record.
    We have a very distinguished panel before us today.
    And I will begin by swearing in our witnesses before 
introducing them.
    If you would please rise and raise your right hand.
    Do you swear that the testimony you are about to give is 
the truth, the whole truth, and nothing but the truth, so help 
you God?
    Please let the record reflect that all the witnesses have 
responded in the affirmative, and you may be seated, gentlemen.
    Our first witness is Mr. William Kovacs. Mr. Kovacs 
provides the overall direction, strategy and management for the 
environment, technology and regulatory affairs division as 
senior vice president of the division at the U.S. Chamber of 
Commerce. Since he joined the Chamber in March 1998, Mr. Kovacs 
has transformed a small division, concentrated on a handful of 
issues in Committee meetings into one of most significant in 
the organization. His division initiates and leads campaign 
issue campaigns on energy, legislation, complex environmental 
rulemaking, telecommunications reform, emerging technologies 
and applying sound science to the Federal regulatory process.
    Mr. Kovacs previously served as chief counsel and staff 
director for the House Subcommittee on Transportation and 
Commerce. He earned his J.D. from the Ohio State University 
College of Law and a Bachelor's degree of science degree from 
the University of Scranton magna cum laude.
    Welcome, sir.
    Mr. Kovacs. Thank you, Mr. Chairman.
    Mr. Marino. Sir, I'm going to introduce everybody and then 
we will come back, do it that way.
    Our second witness is Mr. Sam Batkins. Mr. Batkins is 
director of regulatory policy at the American Action Forum. Mr. 
Batkins research focuses on the rulemaking efforts of 
administrative agencies and related efforts of Congress. His 
work has appeared in The Wall Street Journal, The New York 
Times, the Hill, National Review Online, Reuters, the 
Washington Post among other publications.
    Prior to joining the Forum, Mr. Batkins worked at the U.S. 
Chamber of Commerce Institute for Legal Reform and National 
Taxpayers Union. At the U.S. Chamber he focused on lawsuit 
abuse, tort reform and Federal regulations. At the National 
Taxpayers Union he focused on State and Federal spending. Mr. 
Batkins received his B.A. in political science summa cum laude 
from Sewanee, University of the South. He received his J.D. 
from Catholic University of America, Columbus School of Law. 
Welcome, sir.
    Our next witness is Dr. Patrick McLaughlin. Am I 
pronouncing that correctly?
    Mr. McLaughlin. Yes.
    Mr. Marino. Dr. McLaughlin is senior research fellow at the 
Mercatus Center for George Mason University. His research 
focuses on regulation and the regulatory process with 
additional interest in environmental economics, international 
trade, industrial organization, and transportation economics. 
And his research is regularly published.
    Prior to joining Mercatus, Dr. McLaughlin served as a 
senior economist at the Federal railway administration in the 
United States Department of Transportation. Dr. McLaughlin has 
published in the fields of law and economics, public choice 
environmental economics and international trade. He owns a 
Ph.D. in economics from Clemson University, and welcome to you, 
sir.
    And our final witness is Mr. Amit Narang.
    Mr. Narang. Very good.
    Mr. Marino. Good. Mr. Narang is the regulatory policy 
advocate for Public Citizen and specializes on issues related 
to the Federal regulatory process. Prior to working for Public 
Citizen, Mr. Narang worked at the Administrative Law Review as 
an articles editor.
    Mr. Narang has many media appearances, including quotes in 
The New York Times and Bloomberg BNA, formerly the Bureau of 
National Affairs, Mr. Narang is a graduate of the American 
University, Washington College of Law. And thank you, sir.
    Each of the witnesses' testimonies or written statements 
will be entered into the record in its entirety. I ask that 
each witness summarize his testimony in 5 minutes or less. And 
to help you stay within that time, there is a timing light in 
front of you. The light will switch from green to yellow, 
indicating that you 1 minute to conclude your testimony.
    And when the light turns red it indicates that your 5 
minutes have expired. And if you go over that a little bit, 
that's not a real problem, I'll just tap to give you an 
indication that perhaps you could wrap up for us.
    With that, I'm going to call on Mr. Kovacs for his opening 
statement.

    TESTIMONY OF WILLIAM L. KOVACS, SENIOR VICE PRESIDENT, 
 ENVIRONMENT, TECHNOLOGY & REGULATORY AFFAIRS, U.S. CHAMBER OF 
                            COMMERCE

    Mr. Kovacs. Thank you, Chairman Marino and Ranking Member 
Johnson and Members of the Committee for inviting me here today 
to testify on H.R. 348, currently known as RAPID, which 
addresses permit streamlining, and H.R. 712, which we refer to 
as the Sunshine Act, and that would bring transparency to the 
sue and settle process which enables interest groups to set 
agency priorities.
    When we discuss regulatory reform it is usually about 
Federal agency accountability, transparency, public 
participation and efficiency, but one of the points that we've 
been making lately is regulatory reform is also about Article I 
of the Constitution and Congress' ability to hold agencies 
accountable for the intent of Congress.
    The primary goal of RAPID is to bring good management 
practices, and I repeat that just good management practices, to 
the process of issuing infrastructure permits by requiring 
Federal agencies to do a few simple things. One, designate a 
lead agency to coordinate and manage the environmental review 
process within specified time frames. Two, manage Federal and 
State environmental reviews concurrently rather than 
sequentially. And three, establish a 6-month statute of 
limitations for bringing suit against the project, a time 
period Congress has similarly set for legal challenges in 
Federal construction projects and water construction projects.
    Passage of RAPID is essential if this Nation is to foster 
job creation. RAPID does not and I want to repeat this, does 
not mandate that any particular project be built, but it does 
require Federal agencies to provide the developer with a 
decision within a fixed period of time. Moreover, when RAPID 
was deployed in transportation construction projects in 
SAFETEA-LU, it cut the time to complete a NEPA statement from 
73 months to 37 months. The concept of permit streamlining has 
been supported in various amendments in the House and the 
Senate by the Administration and by Senators as diverse as 
Boxer and Barrasso and governors across the Nation. This is a 
bipartisan issue that this Congress should be capable of 
enacting.
    Turning now to H.R. 712, the Sunshine Act, this addresses 
the issue of sue and settle, a situation which occurs when an 
agency agrees to the demands of an interest group by 
voluntarily entering into a court approved consent decree. The 
process has resulted in over 100 regulations being issued in 
the last 5 years, many of them imposing costs over a $1 billion 
per regulation.
    The Sunshine Act and I am going to use the word merely 
again, the Sunshine Act, merely requires that an agency seek 
public comment from the public prior to the filing of a consent 
decree and provide the comments to the court.
    Second, it allows interested parties to seek to intervene 
if they can establish that their rights are not being 
adequately protected.
    The Chambers' interest in these issues grew out of the fact 
that the regulations were being imposed both on States and our 
members as a result of settlements that they had no knowledge 
of. We discovered that neither EPA nor the Department of 
Justice even maintained a database of such lawsuits but we were 
assured there were very few. We therefore undertook the 
research that culminated with a very extensive inventory of sue 
and settle amendments and it lists well over 100 new 
regulations that have resulted in the last 6 years from sue and 
settle agreements.
    Bringing a management process to the issuance of permits, a 
management process, none of the substances changed. And 
bringing transparency to the filing of consent decrees that are 
going to bind the agency for years can only describe as good 
government, I'm sure I'll have some questions on it. Thank you 
very much.
    Mr. Marino. Thank you, sir.
    [The prepared statement of Mr. Kovacs follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    
                               __________
    Mr. Marino. Mr. Batkins.

             TESTIMONY OF SAM BATKINS, DIRECTOR OF 
            REGULATORY POLICY, AMERICAN ACTION FORUM

    Mr. Batkins. Thank you, Chairman Marino, Ranking Member 
Johnson and Members of the Subcommittee.
    The Federal Government should endeavor to remove outdated 
regulations that stifle job creation and make our economy less 
competitive. That was President Obama echoing similar 
statements made from every President since Jimmy Carter. Both 
Presidents focused on regulatory accumulation and both tasked 
their agencies to look back at their existing regulatory slate 
and reform rules.
    Yet more than a generation later, here we are again 
discussing reform regulation. And it is because regulatory 
reform has failed so often in the past that we continue to talk 
about its place in the future. When we say past reform has 
failed, it is not just a cavalier opinion, it is a fact. The 
agencies and the Administration tell us reform has failed. 
Every year the Office of Information and Regulatory Affairs 
OIRA discloses hundreds of paperwork violations. HHS alone was 
responsible for 80 violations last year.
    When Congress amended the Paperwork Reduction Act in the 
1990's, OIRA set a goal to reduce cumulative regulatory burdens 
by 35 percent, a reduction of 4.6 billion hours. Instead 
regulators increased paperwork hours by 17 percent.
    Then, Congress passed the Congressional Review Act the CRA, 
they instructed agencies to send all rules including major 
regulations to Congress and the Government Accountability 
Office, they haven't. In a recent report Curtis Copeland, at 
the Administrative Conference of the United States found 
thousands of rules that violated the CRA, including 43 major 
rules.
    In 2012, only 71.6 percent of Federal rules followed CRA 
procedure. I am sure regulators expect better compliance rates 
from companies and that Congress expects better performance 
from regulatory agencies. The history of regulatory reform 
instructs the debate today. It is clear that given the current 
resources at agencies, regulatory reform and looking back at 
existing rules might not be a major priority. And that's 
understandable, but just look at the retrospective reports that 
claim that new ACA rules or the regulation on for-profit 
colleges universities is somehow considered a regulatory 
lookback.
    Either agencies examine past regulations and seek to 
improve their effectiveness or they implement rules that to add 
to the cumulative regulatory burden. Too often agencies 
practice the latter. If that's retrospective review, then 
everything is. Asking agencies to issue new regulations and 
examine the cumulative impact of existing rules appears to be 
asking for too much. This is why scholars from across the 
political spectrum have endorsed the idea of an independent 
commission charged with reviewing the regulatory burden. A body 
charged with conducting a comprehensive analysis of the 
regulatory state while ensuring that our regulations remain 
effective could yield tremendous benefits.
    The goal is not to undue the regulatory state, the goal is 
to improve it. There is so much we simply don't know about the 
175,000 pages of Federal regulation. This ignorance doesn't 
help us ensure the health and safety of Americans and it 
doesn't help us promote economic growth.
    As President Carter and President Obama understood, there 
have been tremendous benefits to regulatory reform, and there 
are additional cost savings that could be achieved here today. 
According to our estimates, it's successful. It could generate 
approximately 1.5 billion hours of less paperwork for 
Americans, anywhere from 48 billion to 90 billion in reduced 
regulatory costs.
    The dual goals of a thorough review of the entire 
regulatory system and reducing burdens by 15 percent are 
ambitious, but so were the initial executive orders on 
regulatory reform. While past attempts at reform might have 
been unsuccessful, there is no reason policymakers can't learn 
from previous mistakes and establish a balanced system that 
increases transparency, evaluates the regulatory slate and 
reduces burdens and rules all while protecting health and 
safety. These are bipartisan principles, standard practice 
internationally and not controversial ideas.
    Thank you for the time. I look forward to answering your 
questions.
    Mr. Marino. Thank you, sir.
    [The prepared statement of Mr. Batkins follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                               __________
    Mr. Marino. Dr. McLaughlin.

  TESTIMONY OF PATRICK A. McLAUGHLIN, Ph.D., SENIOR RESEARCH 
       FELLOW, MERCATUS CENTER AT GEORGE MASON UNIVERSITY

    Mr. McLaughlin. Chairman Marino, Ranking Member Johnson and 
Members of the Committee, thank you for inviting me.
    As an economist and senior research fellow at the Marcatus 
Center at George Mason University, my primary research focuses 
on regulatory accumulation legislation and the regulatory 
process so it is my pleasure to testify on today's topic.
    In previous testimony, I have highlighted the fact that 
regulatory accumulation creates substantial drag on the 
economic growth by impeding innovation and entrepreneurship. 
Today, I have two other points that may happen help in 
examining the reforms under consideration.
    First, I will discuss the affects of regulatory 
accumulation or to put it another way, why retrospective 
analysis of regulations can result in what amounts to a tax 
refund with benefits going largely to lower income Americans.
    My second point is that not all attempts at regulatory 
reform are equal. Several factors tend to contribute to 
meaningful and successful regulatory reform efforts. The most 
important of these is the use of an independent body to 
identify regulations that need to be modified or eliminated. 
Any retrospective analysis efforts that leaves this task in the 
hands of the same agencies that created the regulations in the 
first place is unlikely to succeed.
    Regulations can be regressive, particularly in their 
affects on the prices paid by consumers. A regressive 
regulation is one whose burden disproportionately falls on 
lower-income individuals and households. When regulations force 
producers to use more expensive production processes, some of 
those production cost increases are passed along to consumers 
in the form of higher prices. For example, in 2005 the Food and 
Drug Administration banned the use of chlorofluorocarbons as 
propellants in medical inhalers, like the inhalers millions of 
Americans use to treat asthma. Since then the average price of 
inhalers has tripled. While individuals with high incomes might 
be able to absorb this price increase, people with low incomes 
may have to choose not to buy an inhaler and instead leave the 
asthma untreated.
    The cumulative costs of regulations amounts to a hidden 
regressive burden, but it is a burden that could be lightened. 
In fact, one way of viewing that burden is as an opportunity, 
retrospective analysis that eliminates a portion of the 
regulatory cost burden would act like a progressive tax refund. 
Let me explain with an example. The regulatory cost burden can 
be viewed as a tax form by all households. For illustrative 
purposes, suppose the regulatory cost burden equals about 
$8,000 per household.
    Now consider a regulatory reform that would reduce this 
cost burden by 15 percent, which would be $1,200 per household 
per year, this is effectively an annual regulatory cost refund.
    This reduction in regulatory burden would have a much 
larger affect on the purchasing power of the low-income 
household than the high-income end household. To the low-income 
household the regulatory cost refund would equal nearly 5 
percent of 1 year's household income. To the high income 
household, it would equal only.4 percent of 1 year's income. 
This shows that a regulatory cost refund of any amount would 
work just like a progressive tax cut. Even better, unlike one-
time tax rebates this regulatory cost refund would repeat year 
after year.
    So what makes for a successful retrospective analysis? I 
discuss several key factors for success in my written testimony 
as well as in my research and I would like to highlight just 
two of them here today. First, we need to establish criteria 
for identifying unwanted regulations, I suggest a test of 
whether a regulation is functional.
    Functional rules address current significant risks, 
mitigate some amount of those risks and do not have significant 
unintended consequences or excessive compliance costs relative 
to their benefits, non functional rules are missing one or more 
of these features.
    The key to achieving significant improvement of the problem 
of regulatory accumulation is first identifying as many 
nonfunctional rules as possible and then either eliminating 
them or changing them so that they become functional.
    Second, the task of identifying nonfunctional rules should 
be placed in the hands of an independent body. The reason for 
that is to achieve as objective an assessment as possible. If 
the body tasked with the analysis of a rule has incentive to 
find that the rule is functional or has insensitive to find 
that it is non functional, the review risks becoming exercise 
in advocacy rather than an objective analysis. This is a 
primary reason why I recommend that retrospective analysis of 
regulations should not be left in the hands of agencies that 
have incentives find specific results. We should not expect 
agencies to give any better assessment of their own rules than 
professors would expect of students grading their own tests 
students.
    In conclusion, regulatory accumulation with its adverse 
impact on economic growth by impeding innovation and 
entrepreneurship is now a widely recognized problem. 
Furthermore, the costs of regulation are disproportionately 
born by low income households. Retrospective analysis of 
regulations is an opportunity to improve our economy to 
facilitate innovation and to create a progressive regulatory 
cost refund. Thank you, and I would be happy to answer any 
questions.
    Mr. Marino. Thank you.
    [The prepared statement of Mr. McLaughlin follows:]*
---------------------------------------------------------------------------
    *Note: Supplemental material submitted with this witness statement 
is not included in this printed record but is on file with the 
Subcommittee and the statement can be accessed, in its entirety, at:

      http://docs.house.gov/meetings/JU/JU05/20150302/103063/
      
      HHRG-114-JU05-Wstate-McLaughlinP-20150302.pdf.
      
      [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
                       __________
                       
                       
    Mr. Marino. And sir, again I want to be sure I'm 
pronouncing you name correctly, is it Narang.
    Mr. Narang. It's Narang.
    Mr. Marino. Narang.
    Mr. Narang. Although you give it a much better first try 
than most.
    Mr. Marino. Narang, okay. Mr. Narang, would you please give 
your opening statement.
    And I apologize.

                   TESTIMONY OF AMIT NARANG, 
           REGULATORY POLICY ADVOCATE, PUBLIC CITIZEN

    Mr. Narang. Chairman Marino, Ranking Member Johnson and 
Members of the Subcommittee, thank you for the opportunity to 
testify today on the three legislative proposals that are the 
subject of today's hearing.
    I am Amit Narang, regulatory policy advocate of Public 
Citizen's Congress Watch. Public Citizen is a national public 
interest organization with more than 350,00 members and 
supporters. For more than 40 years we have successfully 
advocated for stronger health, safety, consumer protection and 
other rules, as well as for a robust regulatory system that 
curtails corporate wrongdoing and advances the public interest.
    I'd like to first address the proclaimed rationale for this 
legislation which is the claim that regulations hurt the 
economy. This rhetoric is simply not supported by reality. All 
studies that have attempted to demonstrate this falsehood have 
been thoroughly discredited by credible independent and in 
certain cases nonpartisan observers such as the Congressional 
Research Service. None of these studies have been subjected to 
peer review and none would pass scrutiny under peer review.
    I want to focus on one report in particular by the 
Competitive Enterprise Institute which asserts that regulation 
costs our economy $1.8 trillion annually, which breaks down to 
about $15,000 per household. The CEI report is readily cited by 
lawmakers and by a fellow witness at this hearing written 
testimony. And yet The Washington Post found the study 
``misleading'' and worthy of two Pinocchios. The reports 
authors themselves claim it is ``not scientific'' and ``rather 
back of the envelope.''
    This report and others relying on similar discredited and 
methodology can not and should not inform critical policy 
debates and certainly should not be the primary justification 
for any legislation.
    Turning to the legislation itself, let me start with the 
SCRUB Act. The SCRUB Act presumes there are volumes of outdated 
and unnecessary regulations ripe for repeal. But this 
presumption is problematic given the lack of any concrete and 
tangible examples of outdated or unnecessary regulations cited 
by my fellow witnesses in their testimony.
    Supporters may point to the Obama administration's 
retrospective review process as proof that such regulations 
exist. Actually, this compounds the SCRUB Act's problematic 
premise. If the Administration has and is continuing to take 
these regulations off the books, what is there really left for 
the commission to do?
    The commission would be better titled the retrospective 
regulatory reduction commission since the commission only 
promotes deregulation with no corollary mission to strengthen 
regulatory standards that are too weak or identify gaps in our 
regulatory protections that could prevent the next massive 
chemical spill like the one we tragically saw occur in West 
Virginia last year.
    This lack of balance carries over to Title II of the bill, 
which requires agencies to repeal commission identified rules 
before issuing new ones. Here the repeal of rules would not 
undergo cost benefit or any regulatory impact analysis nor 
would the public be allowed to comment both of which would 
still pertain to the issuance of new rules.
    Potentially even more troubling in this double standard is 
the lack of any exceptions to one in, one out scheme for 
emergency rules, addressing urgent public health and safety 
crisis. This could endanger the public by forcing agencies to 
repeal rules before they can issue new health and safety 
regulations to address a public health emergency, such as an 
Ebola outbreak.
    Now let me turn to the Sunshine Act. The Sunshine Act 
reveals one of the most troubling aspects of our current 
regulatory system. The fact that agencies routinely miss 
explicit and mandatory congressional deadlines to issue new 
rules. One quick glance at Public Citizens' visual depiction of 
the regulatory process explains why. The current process is a 
paragon of inefficiency with a maze of redundant requirements 
for agencies to complete before finalizing any rules. It's no 
wonder given dwindling resources that agencies often fail to 
meet congressional deadlines.
    Congress should be making it easier to enforce the law when 
agencies miss congressionally-mandated deadlines. The Sunshine 
Act unfortunately does the opposite. The GAO's recent report on 
the so called sue and settle phenomenon put to bed any claims 
of impropriety in the process. And for the sake of brevity I 
refer you to my written testimony for a fuller explanation.
    Finally, the RAPID Act represents a very different approach 
to the previous two bills expediting agency action regarding 
permit approvals for large infrastructure projects including 
energy projects. It does this by dramatically scaling back the 
process agencies must undertake for determining the 
environmental impacts, meaning the costs and the benefits of 
these--to the environment that such a project would pose.
    The National Environmental Policy Act or NEPA requires 
agencies to conduct this important analysis in order to 
minimize the environmental footprint of the proposed energy or 
infrastructure project. In perhaps the most troubling reform, 
the bill allows project developers themselves to prepare the 
environmental impact statements, allowing those developers to 
decide the impact on the environment its own proposed project 
will have. This is akin to letting, for example, the big banks 
on Wall Street decide the costs and benefits of new Wall Street 
reforms.
    Finally, it is important to step back and take stock of the 
stark double standard created by enactment of all three 
legislative proposals here, along with other so-called 
regulatory reform measures the House has already passed such as 
H.R. 185, the ``Regulatory Accountability Act.''
    I am a sports fan and I hope many of you are too, but with 
apologies to non-sports fans, allow me to use a baseball 
analogy to illustrate this double standard. In a baseball game 
each team gets a chance to bat nine times in nine innings, just 
a little asterisk there, but let's say the rules were changed 
to allow one team to bat 12 times, and the other team to only 
bat six times. While this would not ensure that the team that 
bats more often would always win, it would make it far more 
likely by making the rules unfairly advantage one team over the 
other. This unfair advantage due to a double standard in the 
procedural rules is exactly what will occur by expediting 
permit approvals to the RAPID Act while further delaying and 
impeding new rules to protect the public through the Sunshine 
and SCRUB Acts.
    The Chamber of Commerce is explicit about supporting this 
double standard advocating for one process when agencies 
approve permits and a very different one when agencies approve 
new regulatory standards. If the Regulatory Accountability Act 
``improves the rulemaking process'' as the Chamber claims, 
wouldn't it make sense for the Chamber to support approving 
permits through that process as well?
    Why shouldn't agencies use the same process when 
establishing measures to protect servicemembers from predatory 
lending, as they do when approving new permits. By manipulating 
the process, these legislative measures pick winners and losers 
thereby making our government work for corporate special 
interests and against protecting the public.
    Thank you and I look forward to your questions.
    Mr. Marino. Thank you.
    [The prepared statement of Mr. Narang follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Marino. One of my colleagues, Mr. Collins, must get to 
another hearing.
    Mr. Collins. The Rules Committee.
    Mr. Marino. So I am going to recognize Mr. Collins for 5 
minutes of questions.
    Mr. Collins. Thank you, Mr. Chairman.
    I apologize, I have got rules starting at 5 and I'm trying 
to do both.
    This is very important to me, and I appreciate you holding 
this hearing today and going forward.
    Before we start, I ask unanimous consent to enter into the 
record a written statement from the Attorney General of the 
State of Georgia, Sam Olens. Mr. Olens is unable to be here 
today, but he continues to be a leader on the sue and settle 
issues and I appreciate his support.
    Mr. Marino. Without objection.
    [The information referred to follows:]
                  Prepared Statement of Sam S. Olens, 
                Attorney General of the State of Georgia
    House Resolution 712, the ``Sunshine for Regulatory Decrees and 
                           Settlements Act''
The views expressed in this testimony are those of the author alone and 
      do not necessarily represent those of the State of Georgia.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Mr. Collins. I introduced the Sunshine for Regulatory 
Decrees and Settlements Act because too often, especially under 
this Administration, we have seen pro-regulatory plaintiffs sue 
sympathetic agencies to enact regulations in the dark, absent 
public input and often at the expense of affected parties. It 
is unacceptable for taxpayers hard-earned dollars to fund 
backroom deals to support the rulemaking process.
    These type of settlements have tangible affects and they 
affect the industries across the country, including the 
thriving agricultural community in the Ninth District of 
Georgia. The hardworking men and women in Georgia and across 
the country are trying to make an honest living and have a 
problem with special interests threatening their livelihood. 
Moreover, under sue and settle they are not even allowed to 
participate in the negotiations that will ultimately and 
directly impact them.
    In short, sue and settle agreements create regulation 
through litigation. The potential for abuse and the lack of 
transparency in the system is why I believe so strongly in the 
need for this legislation. My builder will restore transparency 
and increase public participation and input. H.R. 712 addresses 
weaknesses in the current system while preserving consent 
decrees as an important mechanism for settling legal disputes. 
The ability to have citizens to hold government accountable is 
an important part of administrative law, but it must be 
appropriately carried out with transparency and full public 
participation.
    Before I get started, and I know your coworker or someone 
you had holding a sign today, Mr. Narang, came--I couldn't 
think of a better witness for us. If he can stand there, and I 
know his arms would give out after a while, and he could hold 
that up there and explain.
    The general public could just watch and say, is this place 
broken? And all I have to do is take to your poster and say, 
yes, it's broken. Can you imagine what small big, big business 
and anywhere in the country looks at the rulemaking process 
that affects their lives when they look at that poster. If 
you're having to sit here and think that we need not be 
involved in this and get the Federal Government streamlined out 
of this, I'm not sure what we're doing here.
    But I hold a real question you, because you brought up 
baseball, I like baseball. Let me ask you something, in your 
baseball analogy you talked about fairness. And in sue and 
settle what we're dealing with here is we are not stopping 
access to courts, we're not stopping the process of somebody 
being able to sue because they missed a deadline. What we are 
saying here though is you have got to be transparent about it. 
You've got to open it up and before the ruling comes down you 
have to hear from affected parties.
    So using your baseball analogy, can you tell me if it would 
be fair that if the--in a process that we put that the one team 
could always have a runner starting their batting series at 
third base, is that fair? Where they--and the other team cannot 
know who it's going to be and then also that if they can't get 
it in three outs, we'll actually maybe give them one more, do 
you think having that participation would be fair?
    Mr. Narang. Thank you for the question.
    So one runner's starting at third base is essentially what 
Congress dictates. All the settlement is trying to do is 
enforce the law that has already been decided by----
    Mr. Collins. Well, I'm going to reclaim my time here for a 
second. Because what this actually does is is that if you and I 
have a disagreement--I'll be the EPA and you your 
organization--you find the time, you want to sue me, you say 
because we didn't get this time because I want to see agreement 
get set and there is plenty in the record that talks about 
these sue and settle agreements.
    But unfortunately, it affects Mr. Ratcliffe. Under the 
current way it is set up, is we could go into our agreement, I 
agree with you and I say, okay, let's get a dissent decree and 
then put it out there, but he never gets an input. Is that 
fair? Is that really fair?
    Mr. Narang. So the situation that you're referring to here 
is entirely based on the fact that Congress has mandated legal 
requirements. The fairness or lack of fairness probably accrues 
to the fact that these legal requirements exist in the first 
place.
    And when an agency because of the enormous process that I 
pointed out earlier misses a deadline, that shouldn't be very 
surprising to anybody looking at the process and an agency like 
the EPA missing a deadline ascribed by in law by Congress. It's 
a very simple case. There is not very many issues of fairness 
when essentially in court all you have to prove is an agency 
was supposed to issue, you know, a regulation by say March 2nd 
and they don't issue it by March 2.
    Mr. Collins. And I understand. My time is going to end and 
I hate to stop you here, because I would continue this because 
you make our case for us and I know didn't come here to do 
that, because you said the whole process is so messed up this 
is why it's not fair and Congress did it. It is now time for 
Congress not to do it.
    I'm sorry I'm not going to get to the Chamber because the 
GAO report has a lot of problems. And also I see my friend in 
the back Jason Smith from Missouri, his drawback is not about 
outdated regulations, it is about cleaning up the process, and 
I appreciate him.
    And with that, Mr. Chairman, I yield back.
    Mr. Marino. Thank you.
    The Chair now recognizes the gentleman from Georgia, the 
Ranking Member of the Subcommittee, Congressman Johnson.
    Mr. Johnson. Thank you, Mr. Chairman.
    I'd ask unanimous consent to insert the following materials 
into the record: a December 2014 report commissioned by the 
American Conference of the United States on Retrospective 
Review discussing the shortcomings of the square back, also 
testimony of Dinah Bear, the former general counsel of the 
Council on Environmental Quality in opposition to the RAPID 
Act.
    The testimony of John Walke, clean air director for Natural 
Resources Defense Council, in opposition to the Sunshine for 
Regulatory Decrees and Settlements Act. Also letters from the 
Coalition for Sensible Safeguards, an alliance of more than 70 
public interest consumer advocacy civil rights and justice 
groups in opposition to H.R. 712 and H.R. 1155, also a 2012 
Congressional Research Service report on the NEPA approval 
process.**
---------------------------------------------------------------------------
    **Note: The submitted document from the Congressional Research 
Service (CRS) is not included in this printed record but is on file 
with the Subcommittee and can be accessed at: http://www.crs.gov/
pdfloader/R42479.
---------------------------------------------------------------------------
    Also, a 2014 GAO report entitled ``Impact of Deadline Suits 
on EPA's Rulemaking is Limited.''*** And last but not least, 
two reports by the Center for Progressive Reform on regulatory 
cut-go and the benefits of regulation.****
---------------------------------------------------------------------------
    ***Note: The submitted document from the United States Government 
Accountability Office (GAO) is not included in this printed record but 
is on file with the Subcommittee and can be accessed at: http://
www.gao.gov/assets/670/667533.pdf.
    ****Note: The submitted documents from the Center for Progressive 
Reform (CPR) are not included in this printed record but are on file 
with the Subcommittee and can be accessed at:

      http://progressivereform.org/articles/Regulatory_Pay-
---------------------------------------------------------------------------
      Go_1214.pdf

      http://www.progressivereform.org/articles/
      RegBenefits_1109.pdf
    Mr. Marino. Without objection.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               __________
    Mr. Johnson. Thank you.
    Mr. Kovacs, in your written testimony, it appears that you 
blame the delay in the Savannah River dredge project on the 
NEPA approval process, when in fact the delay was caused by 
funding that was not in place, and also a 2-year lawsuit by the 
State of South Carolina, which denied the permit to deepen the 
river channel. And that deepening had already been approved by 
the Army Corps of Engineers the lead agency overseeing the NEPA 
process.
    So those things being true, how would the RAPID Act 
expedite the completion of the Savannah Harbor expansion 
project given the lack of Federal and State funding and the 
blocking of the project through the State regulatory action 
issues which were wholly unrelated to the NEPA approval 
process?
    Mr. Kovacs. Well, that's an excellent question, thank you. 
One of the things that RAPID does and it----
    Mr. Johnson. How would it how would it--the Savannah River 
project, how would it----
    Mr. Kovacs. Savannah River, what happens in RAPID is by 
putting a time limit on it, 2 years, 3 years, whatever it is, a 
decision has to be made so that the developer can either decide 
to stay or go. One of the things----
    Mr. Johnson. And so that decision would have to be made 
within the 2-year period regardless of what it was that was 
holding up the project moving forward, whether or not it be 
lack of funding, whether or not it be----
    Mr. Kovacs. Well, for the environmental impact statement. I 
mean, for example, if you can't get through the environmental 
review process, you're not even going to even seek a permit.
    Mr. Johnson. But I mean, assuming you get through the 
environmental review process, if there is some another reason 
that hangs the project up, the RAPID Act would force approval 
of the project.
    Mr. Kovacs. Yeah, RAPID does not change any substantive 
law. What it does----
    Mr. Johnson. Other than perhaps cause it not to be 
fulfilled.
    Mr. Kovacs. Well, it sets up timeframes of 2 years or 3 
years, depending upon how it is, and then it sets up--if the 
project is approved, it sets up the 6 months statute of 
limitations like you did in SAFETEA-LU and MAP-21 and the WRDA 
bill.
    So as I understand what the Committee's trying to do with 
this legislation is to take existing structures that have 
worked, like SAFETEA-LU, that's been here now for 7, 8 years. 
It's worked. There have been no problems. It incorporated it in 
MAP-21, and it incorporated it in WRDA, and they're trying to 
put the timeline on it for the very simple reason----
    Mr. Johnson. Well, and----
    Mr. Kovacs [continuing]. That the developer's spending 
hundreds of millions of dollars just developing a project.
    Mr. Johnson. And regardless of the cost to the--to the 
developer, there are some societal costs that would be incurred 
by failing to adhere to laws already in place, other laws that 
need to be followed, and the RAPID Act would be a super mandate 
that overrides all other laws imposing deadlines relating to 
project reviews by automatically approving any permit or 
license relating to a major Federal project if the onerous 
requirements are not met within 1 year. Isn't that correct?
    Mr. Kovacs. No. That's not correct. If it's----
    Mr. Johnson. Well, let me ask Mr. Narang, then. Do you 
agree that that is correct, Mr. Narang?
    Mr. Narang. That's the way I read the bill.
    Mr. Johnson. All right. Thank you.
    I'll yield back.
    Mr. Marino. Gentleman's time is expired.
    The Chair now recognizes the Congressman from Michigan, 
Congressman Trott.
    Mr. Trott. Thank you, Mr. Chairman.
    I want to thank all of the witnesses for their testimony.
    Mr. Narang, have you ever run a business before?
    Mr. Narang. I have not, no.
    Mr. Trott. Okay. So let's set up a hypothetical here. Let's 
say you're a home builder in Detroit and you buy 5 acres of 
land, and you're going to build 20 homes in Detroit. You spend 
$500,000 to buy the land, and you borrow that money from the 
bank and you're paying interest on it. Do you think your 
business would be more or less successful if it took the City 
of Detroit 3 years to issue the building permits or 3 weeks?
    Mr. Narang. Well, I would assume that it would be easier 
for the home developer if, of course, it was issued in 3 weeks. 
I don't know that I'd agree that that would be a sensible 
decision given the speed at which it was made.
    Mr. Trott. Well, so if it took 3 years, which it did for 
many years in Detroit, what--would you be hiring people during 
that time, or what would you be doing with--a, would you be 
able to repay that 500,000, or would you be able to stay in 
business? Would you be hiring people?
    Mr. Narang. Thank you, Congressman. As you know, I am not 
someone with experience in managing a business. So I don't 
think that my insight would be very helpful.
    Mr. Trott. Well, it's a real common sense question. You 
borrow 500,000, you buy five acres of land, you're going to 
build 20 houses, but for some reason it takes the governmental 
unit 3 years to issue the permits so you can start building and 
put the roads in and the sewers. How is your business going to 
do during those 3 years, and how many jobs are you going to 
create? That's a common sense answer. Wouldn't you think?
    Mr. Narang. I think these issues are very complicated, and 
the hypothetical doesn't include potential environmental 
considerations from that development.
    Mr. Trott. Okay. So in your statement you said that the 
tradeoff between--there's no evidence to support the argument 
that there's a tradeoff between economic growth and strong and 
effective regulatory standards. So do you believe all of the 
regulations in the code are strong and effective standards?
    Mr. Narang. I didn't say that. No.
    Mr. Trott. So you think some of the regulations should be 
revisited?
    Mr. Narang. I think many could be strengthened, and they 
are too weak and ineffective currently. Unfortunately, the 
SCRUB Act doesn't allow for that.
    Mr. Trott. Could some of them be streamlined?
    Mr. Narang. Could some of the regulations themselves be 
streamlined?
    Mr. Trott. Right.
    Mr. Narang. It's unclear. I'd have to look at each specific 
regulation, of course. I do think that the regulatory process 
for new public health and safety regulations can definitely be 
streamlined. It just takes one look at our chart for that to be 
apparent.
    Mr. Trott. So but you seem hesitant to acknowledge that 
maybe there's some need in the Federal Government to streamline 
regulations. I mean, you think most of the regulations are 
pretty efficient as they relate to business?
    Mr. Narang. I assume there could be, but unless I'm given--
--
    Mr. Trott. Do you think the RAPID Act and the SCRUB Act 
help us try and streamline some of the regulations that are 
undermining business?
    Mr. Narang. So I'm a little hesitant to respond, 
Congressman, only because of the way that you use streamline. 
You know, a regulation is--sometimes has certain components in 
order to be effective, and it may not be possible to streamline 
certain regulations. I would be very comfortable speaking to 
streamlining processes for adopting regulations.
    Mr. Trott. So when I--at a very high level, when I speak to 
a small business owner in my district, and in which I spoke to 
many during the campaign, and they--he has eight employees, 
it's a oil change business in Canton, Michigan, and he tells me 
that Federal regulations are crunching his margins and causing 
him not to be able to open another store, should I say: Well, 
there's no evidence that Federal regulations are undermining 
your business or causing you an inability to create jobs, and 
just tell him to kind of hunker down and get it done? What 
should I say to that person?
    Mr. Narang. Congressman, you're misconstruing what I was 
trying to say. So let me actually clarify. Maybe it's my own 
fault.
    I am talking about studies that claim in the aggregate, in 
a macroeconomic sense, that regulations are harming the 
economy. Those studies are baseless.
    Mr. Trott. Okay.
    Mr. Kovacs, how many jobs, do you think, could be created 
by the enactment of the RAPID Act?
    Mr. Kovacs. Well, I don't think we know how many jobs would 
be created by this because projects are going on and off the 
books all the time, but what we did do is in Project No Project 
we looked at a series of projects that were seeking to get a 
permit over a 1-year time period, and there were 351 projects 
that produced electricity, and we picked that because we could 
get good records on it, and as the Chairman had stated in his 
initial--in his initial statement, it was roughly about a 1.9 
million jobs on 351 projects and about a billion dollars--$600 
billion in investment.
    Mr. Trott. Okay. Thank you, sir.
    I yield back my time.
    Mr. Marino. Thank you.
    The Chair now recognizes the Ranking Member of the full 
Committee, the gentleman from Michigan, Congressman Conyers.
    Mr. Conyers. Thank you, Chairman Marino.
    Let me ask Attorney Narang this question: Is there any 
empirical evidence not regulation--that regulations depress 
jobs development? Is there any empirical evidence that 
regulations depress job development?
    Mr. Narang. Thank you, Congressman. So in the aggregate 
from a macroeconomic standpoint, there's no empirical 
evidence--credible empirical evidence to support that claim.
    Mr. Conyers. That's what I've been thinking, but I'd like 
to explore it a little further. Is there any empirical evidence 
that regulations adversely impact our Nation's economy?
    Mr. Narang. Again, in the aggregate or macroeconomic 
sense----
    Mr. Conyers. Yes.
    Mr. Narang. There is none.
    Mr. Conyers. And what is your response to the allegations 
that regulations impose a $15,000-a-year tax on every American 
family?
    Mr. Narang. Well, Public Citizen noted almost immediately 
when the report came out that it was baseless, that it was 
using a flawed methodology, and that it was the same flawed 
methodology that other studies, including one that was adopted 
by the SBA and subsequently disavowed by the SBA also used.
    I will say that Public Citizen saying it is one thing, but 
the Washington Post saying it is definitely another thing, and 
so I do want to also emphasize that credible, independent, 
nonpartisan sources have also echoed our criticism of the 
studies.
    Mr. Conyers. Thank you.
    Now, under H.R. 712, the Sunshine for Regulatory Decrees 
and Settlements, it appears that any private third party could 
weigh in on a proposed consent decree or settlement agreement 
pertaining to a regulatory action that affects the rights of 
private parties.
    Hypothetically, under H.R. 712, if the regulatory action 
involved, for example, the Clean Air Act, could a private third 
party include someone who breathes air?
    Mr. Narang. So you're right that H.R. 712 massively expands 
standing to engage in settlement discussions, and I think your 
question--the answer to your question is I don't necessarily 
read it as such, but potentially it could.
    Mr. Conyers. Okay. Attorney Narang, what are some of the 
problems with the proposed regulatory cut-go requirements 
contained in Title II of the SCRUB Act?
    Mr. Narang. So one thing with--just with respect to the 
last question, you know, the proposed expansion under H.R. 712 
is very different than what you get in the RAPID Act. So I know 
this is not directly responsive to your question, but the RAPID 
Act, of course, only allows parties that have commented in the 
RAPID Act to participate in a judicial challenge of that.
    With respect to the SCRUB Act, the cut-go provisions, this 
is, I would say, a fairly Draconian piece of the bill in that 
there are very few exceptions to allow agencies to address 
emergency issues. You know, we saw one last year with the Ebola 
outbreak. If regulations arenecessary in that instance, I don't 
see a, you know, any kind of emergency exception, and then 
again, what I pointed out in my testimony.
    There's a really stark double standard. It doesn't make 
sense to me to require rules, essentially, to be repealed by 
agencies within 60 days in order to allow agencies to go 
forward with rules that would then have to go through the very 
lengthy process, in most cases, to issue new rules, and would 
have to go through all of the regulatory impact analyses, cost 
benefit analyses, public comment participation that is 
advocated by my fellow witnesses as the hallmarks of a good 
process, a good regulatory process.
    Mr. Conyers. Thank you very much.
    I'm sorry I couldn't get to you other three gentlemen. I 
have questions for you as well, but I thank the Chairman for 
the time.
    Mr. Marino. Thank you.
    The Chair now recognizes the gentleman from Texas, Mr. 
Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman. I appreciate all 
the witnesses being here today.
    Two weeks ago I spent a week back in my district 
representing the 18 counties of Northeast Texas, and in 
traveling that district, one of the things I heard over and 
over again from constituents as a primary concern was the 
growing size of our Federal Government. Most of the 700,000 
Texans that I have the privilege to represent are angry at the 
growth of government in this country and the impact that 
decisions being made by unelected bureaucrats in those agencies 
are having on their everyday lives.
    They see the effect of these decisions in the lunches that 
their kids eat at school, in the requirements for their 
dishwashers and for their ice makers and for their air 
conditioners. They're outraged by a proposed rule from the EPA 
which would turn the puddles in their back yards into the 
waters of the U.S., and now last week they saw a government 
takeover of the Internet through new net neutrality 
regulations.
    Every one of these regulations is an abridgement of some 
freedom, and it comes with a price tag. In fact, the 
Competitive Enterprise Institute estimates that the cost of 
these mandated regulations is $15,000 per household, which is a 
staggering 23 percent of the average household income in the 
United States. Twenty-three percent of the income of average 
Americans shouldn't be held hostage by unelected bureaucrats.
    Consistent with some of these excesses that I've mentioned, 
Mr. Batkins, you noted in your testimony that since 2008 
regulators have added more than $107 billion in annual 
regulatory costs. Did I had hear that correctly?
    Mr. Batkins. Correct.
    Mr. Ratcliffe. All right. And did I also hear you today say 
that the number of hours spend of Federal regulatory paperwork 
has expanded to $9.3 billion with a b hours per year?
    Mr. Batkins. As of today, I think it was 9.98 billion.
    Mr. Ratcliffe. Well, I think you'd agree with me that's an 
outrageous number, whether it's 9.3 or 9.9.
    Well, I think that we're like minded on this issue, Mr. 
Batkins, and I think we're also both encouraged based on your 
testimony about some of the legislation that we're looking at, 
and you commented on Congressman Smith's SCRUB Act and the 
Sunshine for Regulatory Decrees and Settlement Act, that if it 
was implemented, it would result in savings of billions of 
dollars in possible benefits, and 1.5 billion hours less of 
paperwork. Did I hear that correctly?
    Mr. Batkins. Correct.
    Mr. Ratcliffe. So my question to you is this, though: In 
your opinion, why would the regulatory reform efforts in these 
bills succeed when so many others have failed to result in real 
reform on these issues?
    Mr. Batkins. Well, part of the problem is that real reform 
in the past has been left entirely to the discretion of 
agencies and with no penalty or judicial review component at 
all. An agency can violate the Paperwork Reduction Act 
generally without penalty. They could not submit rules to GAO 
or Congress under the Congressional Review Act without penalty, 
and the executive orders are not subject to judicial review 
either.
    It's my understanding that SCRUB--the SCRUB Act does 
contain that judicial review component, and here we're actually 
taking away a lot of what is supposedly a burden on regulators 
currently, which is to review the cumulative stock of 
regulations. We're taking that off of the agency's plate and 
putting it in the SCRUB Commission. So I think establishing a 
separate commission and including those judicial review 
components is something that will make sure this reform lasts.
    Mr. Ratcliffe. Terrific. Thank you, Mr. Batkins.
    Mr. McLaughlin, you noted in your testimony that burdensome 
regulations are effectively a hidden tax on Americans. That is 
something that my constituents have heard me say often when 
talking about regulations in this country.
    You went on to say that regulatory reform, if done well, 
could result in a tax return that benefits most lower-income 
Americans.
    Can you speak to the broader effect that such a--well, I'll 
call it a tax refund would have on our economy? Specifically on 
family purchasing power on--and on overall job creation?
    Mr. McLaughlin. Certainly, and thank you for the question.
    There have actually been several studies published in peer-
reviewed economics journals that have come to a consensus, 
contrary to my fellow witness' statement that macroeconomic 
effects of regulation are negative. There was a study in the 
Journal of the Economic Growth, and in several studies put out 
by the World Bank were published in some top journals as well, 
and the consensus result of these studies is that we slow 
economic growth, and the primary mechanism that forces that to 
happen is through the hindrance of innovation.
    So if you think about your constituents and a small 
business man, perhaps, there, if he has a set of choices with 
which to make his business work and as the--as regulations 
build up those choices are more and more constricted, more and 
more constrained, then by definition he will be less able to 
innovate. That's the primary mechanism, and whenever innovation 
is hampered, you're going to see negative effects on job 
growth.
    In fact, there was a recent survey done of Silicon Valley 
CEOs, one of the great engines of our economy, and it asked 
them what they think the biggest problem is for their business 
is, and they said number one is regulation.
    Mr. Ratcliffe. Thank you.
    My time has expired.
    Mr. Marino. Thank you.
    I'm going to ask that Mr. Conyers make a statement at this 
point.
    Mr. Conyers. Well, thank you very much, Chairman Marino.
    Mr. Marino. Or introduce someone, I think.
    Mr. Conyers. I really wanted to give a welcome and a shout 
out to Attorney Scott Peters, who in a second term, has joined 
the House Judiciary Committee, and we're very proud of him. 
He's from California, I think the San Diego area, and we all 
look forward to working with you, and welcome aboard.
    Mr. Peters. Thank you very much.
    Mr. Conyers. Thank you.
    Mr. Marino. You are welcome.
    Now the Chair recognizes the newest Member, Mr. Peters from 
California, who is under no pressure to perform now since he 
got those glowing remarks from Mr. Conyers.
    Mr. Peters. Thank you, Mr. Chairman, and thank you, Mr. 
Conyers, for the very kind comments.
    When I practiced law, I represented a lot of large and 
small businesses and government agencies trying to get through 
the permit process, and I'm actually very sympathetic to the 
notion that we should set high stands and we should respond in 
a timely way because in a microeconomic sense you talk to these 
businesses that are really affected by the carrying costs of 
regulation, and actually I was one of the Democrats that 
actually voted for this RAPID Act last time, but I have an 
issue with it this time which is the subsection K prohibition 
of any consideration of the social cost of carbon, which is the 
economic, environmental, and social costs of carbon dioxide 
emissions by agencies in an environmental review or decision 
making, and it applies to all Federal agencies by the terms of 
this bill.
    Accounting for the social costs of carbon and preparing for 
climate change, according to Mayor Bloomberg's Report, which is 
a bipartisan report, it is a smart business practice, with 
greenhouse gas driven changes in temperature will necessitate 
the construction of new power generation capacity that the 
report estimates will cost residential and commercial rate 
payers up to $12 billion per year, and in 2014 the Pentagon 
also issued a report on the security risks of climate change, 
finding that climate change poses an immediate threat to 
national security due to increased risks of terrorism, food 
shortage, poverty, and infectious diseases.
    So I guess I'd ask Mr. Kovacs, Mr. Batkins, and Mr.--Dr. 
McLaughlin, if any of you sees this ban on considering the 
social costs of carbon as necessary to achieving the regulatory 
reform of this act, and if you do see it as important, where 
would we evaluate as a Nation the costs of carbon issues that 
the business community and the Pentagon have raised?
    Mr. Kovacs. Sure. Well, first of all, I'm honored to get 
your first question. So I thank you very much.
    The issue with social--first of all, I don't know how it 
even got in the bill. I think was an amendment so----
    Mr. Peters. It was an amendment. Right.
    Mr. Kovacs. Because it wasn't in the original bill.
    I think that the issue, and I'm just talking about from the 
outside, that it's been used roughly by 62 times, and I don't 
think anyone has a problem with that, but it's never gone 
through either the Data Quality Act peer review or any type of 
the public comment, and I think that if you could work out a 
way in which to send it through public comment so people know 
what the assumptions are that they're using and how it's being 
factored in, that the way it is now is it could be set at $5 or 
it could be set at 50 or 100.
    Mr. Peters. Would--Mr. Kovacs, wouldn't the NEPA process by 
its process be a process in which we could evaluate that and--
--
    Mr. Kovacs. No. Because it's more of a--I think it's more 
of an economic issue, and there may be ways in which the agency 
that uses it could do it. I think it's easy, and we'd be--I 
mean, that's one we would----
    Mr. Peters. But it doesn't have to be in this bill, does 
it, to achieve the regulatory reform?
    Mr. Kovacs. I didn't even--really, until today I didn't 
even know it was in the bill.
    Mr. Peters. Okay. Good. Either of you think it's important 
to this bill to achieve regulatory reform?
    Mr. Batkins. The RAPID Act wasn't something I specifically 
address in my testimony. From just my initial--I know that 
social cost of carbon has been a part of Federal rule making, I 
think, since 2009, 2010, varying every year and depending a lot 
on discount rate, but I haven't evaluated its----
    Mr. Peters. Okay.
    Mr. Batkins [continuing]. Impact on RAPID.
    Mr. Peters. Dr. McLaughlin?
    Mr. McLaughlin. I'm afraid I don't really have an opinion 
on this.
    Mr. Peters. Okay. So I would just make the comment, I--Mr. 
Trot's example, he's left now, but it's an example that I've 
given for my clients many times. You know, you have--you make 
an investment, you have to carry the cost of the--of the debt 
on that investment if you borrowed money for a period of time, 
and you can't get a return until you can get your permits, and 
so I'm very sympathetic to working on this, but it does strike 
me that this ban on the considering the social costs of carbon, 
even as part of a quicker reduced tighter regulatory process is 
gratuitous, it's unnecessary, and I'm going to ask my--at 
appropriate time I'll ask my colleagues to amend the bill to 
remove that prohibition. It will certainly make it much more 
attractive to me to vote for it, and I think to a lot of my 
colleagues on this side of the aisle.
    Mr. Chairman, thank you very much. I yield back.
    Mr. Marino. Thank you.
    I'm now going to recognize myself for 5 minutes of 
questioning, and first of all I would like to enter into the 
record an article dated Tuesday, January 18, 2011, in the Wall 
Street Journal states that ``President Obama announced that he 
will be signing an executive order to review regulations with 
an eye toward getting rid of unneeded regulations and making 
existing regulations less intrusive and more flexible,'' and he 
goes on to say that the costs will be a factor that's 
considered in this as well as environmental issues and seeing 
that we can get regulation in permits submitted much sooner 
than we're doing at this point.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                               __________
    Mr. Marino. So with that, Mr. Kovacs, if there are true 
environmental problems with a project, with a given project, 
will the RAPID Act prevent Federal officials from assuring that 
those problems are dealt with before a permit is granted?
    Mr. Kovacs. Yes. I mean, all of the--all of the problems, 
all of environmental commitments and all of the permit 
requirements have to be complied with. There is--there is no 
substantive change anywhere in Federal law. This is purely--and 
I keep on saying this--this is purely a management bill where 
you have a lead agency coordination with the states, and you 
have some timeframes, and that's all this bill does.
    And if you look at what CEQ is doing, the President's 
executive orders, what they've done in the Senate on safety, 
the Republicans and the Democrats have been on the same side of 
the page on this type of an issue for a while.
    Mr. Marino. Some have suggested, again, Mr. Kovacs, that 
the RAPID Act would gut NEPA. Would it or would it not?
    Mr. Kovacs. No. It doesn't do anything to the substance.
    Mr. Marino. Okay. Dr. McLaughlin, Mr. Narang made an 
assertion that arguments linking regulations to job losses and 
depress economic growth are pure fiction. Would you like to 
respond to that?
    Mr. McLaughlin. Certainly. There was a article in the 
highly respected journal, the Journal of the Economic Growth, a 
peer-reviewed economics journal by Professors John Dawson and 
John Cedars that found the accumulation of regulation hinders 
economic growth by about 2 percent per year. There have been 
other studies that have found similarly large hindrances of 
economic growth from regulatory accumulation published in such 
respected journals as the Quarterly Journal of Economics, it's 
one of the top journals that there is in economics, as well as 
in economics letters from such esteemed bodies as the World 
Bank.
    So I think it's patently false to say that there is no 
evidence that the accumulation of regulation harms economic 
growth.
    Mr. Marino. Again, Mr. McLaughlin, the SCRUB Act also 
authorizes the Retrospective Regulatory Reform Commission to 
recommend to Congress whether statutory authority to promulgate 
regulation should be repealed.
    Why is that feature of the bill important?
    Mr. McLaughlin. I'm sorry. Could you repeat that. I 
couldn't quite catch it.
    Mr. Marino. Yeah. The SCRUB Act also authorizes the 
Retrospective Regulatory Review Commission to recommend to 
Congress whether statutory authority to promulgate regulations 
should be repealed.
    Why is that feature of the bill important?
    Mr. McLaughlin. Thank you. That's actually quite important 
because the source of a problem--regulations come from 
statutes. The Congress requires regulators to make rules. But 
if Congress required that in such a way that the regulator is 
limited in his choices, in other words, that the regulator has 
to make a rule that's not effective, for example, then we need 
to point back to the source of the problem itself.
    Mr. Marino. Okay. Mr. Narang, again, is that correct?
    Am I pronouncing your name correct? I apologize. I've been 
trying to get this straight for a couple minutes.
    Mr. Narang. Thank you. There's a far more direct way also 
for Congress to do that same act--take that same action, which 
would be to directly repeal statutes. So, for example, if 
Congress wants to directly repeal the Clean Air Act, it can do 
so in a very direct way. We don't need a commission--a 
taxpayer-expensed commission to make those recommendations.
    Mr. Marino. But do you agree with me that the RAPID Act 
does not tell any agency how to go through the permitting 
process and how to do their evaluations?
    Mr. Narang. I think also taking into consideration what 
Congressman Peters just pointed out, that the social costs of 
carbon is not to be incorporated into these environmental 
impact statements, it puts a very heavy thumb on the scale in 
favor of projects that would emit large amounts of carbon in 
the atmosphere and contribute to climate change.
    Mr. Marino. But do you know the argument and the climate 
change issue has been going on for years and years, and it's 
apparent that each side can bring in all kinds of witnesses to 
counter the other side, but don't you think that 15 years is 
way too long for the Federal Government and other governments 
to determine whether a permit should be issued?
    Mr. Narang. I would agree with that, and I'd also say that 
15 years is far too long for--in critical public health and 
safety measures. Unfortunately, at Public Citizen we have a 
quite a few examples of public health and safety measures that 
took longer than 15 years to protect the public.
    Mr. Marino. And I see that, you know, my time has expired.
    And I want to thank everybody for being here today. I know 
we're going to vote. I don't think it's going to be in the next 
couple of minutes, but it's closely coming.
    This concludes today's hearing, and thanks to all of our 
witnesses for attending, and without objection, all Members 
will have 5 legislative days to submit additional written 
questions for the witnesses or additional materials for the 
record.
    And the hearing is adjourned, and thank you.
    
    [Whereupon, at 5:29 p.m., the Subcommittee was adjourned.]
    
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                <F-dash>
                                
                                
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


         Response to Questions for the Record from Amit Narang
         
         
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
                                
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
                                
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
                                
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                <F-dash>
                                
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                 [all]
                                 
</pre></body></html>
